<html>
<title> - [H.A.S.C. No. 112-25]AMPHIBIOUS OPERATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-25]
 
                         AMPHIBIOUS OPERATIONS

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 16, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
65-582                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                    W. TODD AKIN, Missouri, Chairman
DUNCAN HUNTER, California            MIKE McINTYRE, North Carolina
MIKE COFFMAN, Colorado               SUSAN A. DAVIS, California
SCOTT RIGELL, Virginia               JAMES R. LANGEVIN, Rhode Island
TIM GRIFFIN, Arkansas                RICK LARSEN, Washington
STEVEN PALAZZO, Mississippi          JOE COURTNEY, Connecticut
TODD YOUNG, Indiana                  CHELLIE PINGREE, Maine
ROSCOE G. BARTLETT, Maryland         MARK S. CRITZ, Pennsylvania
J. RANDY FORBES, Virginia            HANK JOHNSON, Georgia
ROB WITTMAN, Virginia                BETTY SUTTON, Ohio
TODD RUSSELL PLATTS, Pennsylvania
                 John Wason, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                 Mary Kate Cunningham, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, March 16, 2011, Amphibious Operations.................     1

Appendix:

Wednesday, March 16, 2011........................................    25
                              ----------                              

                       WEDNESDAY, MARCH 16, 2011
                         AMPHIBIOUS OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Davis, Hon. Susan A., a Representative from California, 
  Subcommittee on Seapower and Projection Forces.................     2

                               WITNESSES

Blake, VADM Terry, USN, Deputy Chief of Naval Operations for 
  Integration of Capabilities and Resources......................     7
Flynn, Lt. Gen. George, USMC, Commanding General, Marine Corps 
  Combat Development Command.....................................     5
Stackley, Hon. Sean, Assistant Secretary of the Navy for 
  Research, Development and Acquisition..........................     3

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    29
    McIntyre, Hon. Mike, a Representative from North Carolina, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    30
    Stackley, Hon. Sean, joint with VADM Terry Blake and Lt. Gen. 
      George Flynn...............................................    32

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................    47
                         AMPHIBIOUS OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                         Washington, DC, Wednesday, March 16, 2011.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
room 2118, Rayburn House Office Building, Hon. Todd Akin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM 
MISSOURI, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND EXPEDITIONARY 
                             FORCES

    Mr. Akin. The hearing will now come to order, and I have a 
brief opening statement. And I don't know if we will have maybe 
but one and just allow you gentlemen to proceed, I think, 
unless the minority leaders here----
    Unless--do you have a statement, too?
    Okay, you do that. Okay, fine, thank you.
    The purpose of today's hearing is to receive testimony 
regarding the amphibious requirements and operational 
development plans necessary to effectively meet the U.S. 
combatant commanders' demands to engage forward, respond to 
crisis, and project power.
    Today's witnesses include the Honorable Sean Stackley, 
Lieutenant General George Flynn, Vice Admiral John Blake.
    And, gentlemen, thank you for being here. Thank you for 
your longstanding service to our country and the great job that 
I know that you all do.
    First, I would appreciate at some point if Admiral Blake 
and General Flynn could give us an update on how the 7th Fleet 
is responding to the current crisis in Japan. That is kind of a 
little parenthesis, but I think everybody is interested. Our 
thoughts and prayers go out to all the victims, survivors and 
family members, who are trying to get through this terrible 
disaster.
    Fortunately, we have the United States Navy and Marine 
Corps that can provide humanitarian assistance in cases such as 
this, and I know the subcommittee would appreciate a short 
update on how they are doing. This is, of course, relevant to 
today's hearing.
    We know that Department of Navy officials agreed that a 38-
ship amphibious force would more fully meet the Marine Corps 
2.0 Expeditionary Brigade assault echelon lift requirement. We 
also know that a 33-ship amphibious force is the minimum 
number. And, in fact, that minimum number currently isn't 
planned to be reached until 2017. We need to fully understand 
what risk is associated with maintaining an amphibious ship 
inventory less than 38 ships.
    Finally, it is no secret that I do not agree with the 
decision to terminate the EFV [Expeditionary Fighting Vehicle]. 
I fear that although there is a lot of talk about support for a 
new vehicle to replace EFV, history tells us that when all is 
said and done, the Marine Corps will probably only get an 
upgraded version of the current AAV [Amphibious Assault 
Vehicle]. It is important for the members of this committee to 
understand what the current status of the EFV contract is, how 
the $3.3 billion dollars that has been spent on this program 
won't be for naught.
    And, again, thank you for being here, and I look forward to 
your testimony. I would now yield to my friend, Mrs. Davis, for 
an opening statement.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 29.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, SUBCOMMITTEE ON SEAPOWER AND EXPEDITIONARY FORCES

    Mrs. Davis. Thank you, Mr. Chairman. And I am pleased to 
step in for Mr. McIntyre. I want to thank you and certainly 
thank Secretary Stackley and Admiral Blake, General Flynn for 
being here and for testifying before this committee once again.
    Today, we will hear testimony from both the Navy and the 
Marine Corps on how they plan to execute amphibious operations 
and how we as Congress can best support that mission. The need 
for a forward-deployed amphibious force comprised of both Naval 
and Marine assets cannot be seen more clearly than now.
    The tragic events that we have witnessed in the aftermath 
of the Japanese earthquake and subsequent tsunami only further 
highlight the need for a quick response force that can 
effectively move from the sea to shore in order to provide 
assistance.
    I look forward to hearing any updates our witnesses can 
provide on how our forces are doing in support of the Japanese 
relief. Our thoughts and our prayers are with all those who 
have been affected.
    The Marine Corps represents our Nation's 9/11 emergency 
response force, and that enables us to quickly respond to 
events anywhere in the world. There is no question that our 
marines have been a crucial part of our forces in both Iraq and 
Afghanistan, but it is essential that we transition the Marine 
Corps away from being a second land force and back to one that 
is an amphibious-based expeditionary force.
    In doing so, it is essential that we carefully examine what 
that force should look like, whether that be the appropriate 
number of amphibious ships or the most capable platform for 
moving marines ashore.
    After the recent decision to terminate the Expeditionary 
Fighting Vehicle, the EFV, I am particularly interested to hear 
our witnesses' views on what the current requirement is for an 
amphibious vehicle. I would also like to hear what the 
requirements will be for any new follow-on vehicle, such as 
speed, distance and plane requirements.
    I would like to hear from the Navy on what the minimum 
ship-to-shore distance is for Navy amphibious ships to safely 
deliver marines ashore in a new vehicle. And I believe that 
these are important questions that should be carefully analyzed 
as we transition our force.
    Whether it is crisis response, disaster and humanitarian 
relief or forward presence, our Navy and Marine Corps 
amphibious capability is a vital asset for the United States 
that we must maintain.
    Thank you, gentlemen, for your service and for being here 
today, and we all look forward to your testimony.
    [The prepared statement of Mr. McIntyre can be found in the 
Appendix on page 30.]
    Mr. Akin. Thank you.
    And Secretary Stackley, why don't you start off, and I will 
let you determine your order, and then we have a bunch of 
people with a lot of questions.

  STATEMENT OF HON. SEAN STACKLEY, ASSISTANT SECRETARY OF THE 
         NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION

    Secretary Stackley. Yes, sir. Chairman Akin, Representative 
Davis, distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today to discuss 
amphibious operations and, more importantly, for your steadfast 
support for our sailors and marines around the world.
    I propose to keep my opening remarks brief and submit a 
formal statement for the record with your concurrence.
    Mr. Akin. I concur.
    Secretary Stackley. Thank you, sir.
    Mr. Chairman, your Navy, Marine Corps team is the Nation's 
force on the move--sea, air and land. About 90,000 sailors and 
marines are today deployed around the world, conducting 
missions that span the full spectrum of operations, from 
humanitarian assistance, disaster response, to maritime 
security, to combat operations.
    Be it in response to the Nation's call in Iraq or 
Afghanistan or in response to events unplanned and unimagined 
in Libya or Japan, this team is first on the scene and remains 
on scene, prepared to serve in whatever capacity the Nation 
calls for.
    It is our will to exercise our freedom of the seas in times 
of peace, our mission to exercise command of the seas in times 
of war, and our ability to project forces ashore in the most 
austere environments, every ocean, every continent that ensures 
our Nation's readiness to respond to crisis or conflict, 
wherever our interests are challenged.
    In considering our investments and capabilities required 
for the force, our first priority is in addressing the fight we 
are in and in taking care of our sailors and marines in the 
fight. The Marine Corps, in particular, has been on point in 
key developments in rapid fielding of capabilities critical to 
this priority.
    In addition to these priorities, the 2012 President's 
budget request continues the recapitalization of the Marine 
Corps' amphibious capabilities, an effort that has been 
sustained for over the past decade plus. The ships, aircraft 
and vehicles required to conduct amphibious operations are 
uniquely capable of conducting ship-to-shore lift operations in 
environments ranging from austere to hostile.
    And it is the fleet's ability to aggregate at sea a mix of 
type and number of ships, aircraft and landing craft that 
provides our ability to respond to a crisis or conflict at a 
scale appropriate to that crisis or conflict.
    So, to this end, our amphibious force requirements have 
been shaped over the past decade to provide two Marine 
Expeditionary Brigade lift within an assault echelon of battle 
force amphibious ships in addition to equipment prepositioned 
within our Maritime Prepositioning Force to support an 
additional brigade.
    As discussed at last week's shipbuilding hearing, 38 
amphibious ships are required to meet the full extent of this 
requirement. In balancing the risk across our shipbuilding 
program, the department's plan builds a balanced mix of 33 
amphibious ships, providing aviation and well deck facilities 
to support combined vertical and horizontal lift operations by 
embarked aircraft, landing craft and assault vehicles. And to 
this force, we are adding logistics lift capability with 
procurement of the Mobile Landing Platform and Joint High Speed 
Vessel.
    The aviation component of amphibious forces is in the midst 
of total recapitalization. The President's budget request 
continues procurement of the MV-22 Osprey, remanufacture and 
new build of the utility and attack versions of the H-1 
helicopter, development and limited re-procurement of the short 
takeoff vertical landing version of the Joint Strike Fighter, 
and new development programs for the heavy-lift helicopter and 
the Small Tactical Unmanned Air System.
    These programs provide increased lift, air support and 
aerial surveillance capabilities today in the case of MV-22 and 
H-1 and within the future years' defense plan in the case of 
the Joint Strike Fighter, heavy-lift helo and unmanned air 
systems.
    As well we are here today to address landing craft and 
ground combat tactical vehicles required for amphibious 
operations. In determining the force structure and capabilities 
required to respond to the wide range of environments and 
threats potentially confronting amphibious operations, the 
amphibious force must balance lift, mobility on water and land, 
range and speed, survivability, fire power, and command and 
control.
    The key elements of horizontal lift for amphibious 
operations are the Landing Craft Utility, or LCU, which 
provides low-speed, high-volume ship-to-shore transfer of 
personnel and equipment; the Landing Craft Air Cushion Vehicle, 
or LCAC, which provides high-speed ship-to-shore transfer of 
equipment; and the Amphibious Assault Vehicle, or AAV, a 
tracked amphibious vehicle which provides lift over water and 
over land and limited protection and fire for a squadron of 
marines.
    I would like to highlight two programs in particular. The 
LCAC fleet, whose service life has been extended through a SLEP 
[Service Life Extension Program] program requires 
recapitalization commencing later this decade. Accordingly, 
this year, we will be opening competition for a new ship-to-
shore connector, a modern replacement for the LCAC to provide 
high-speed ship-to-shore transfer of Marine Corps ground 
vehicles.
    The Amphibious Assault Vehicle was planned to be replaced 
by the Expeditionary Fighting Vehicle, or EFV. As announced by 
the Secretary of Defense in December, the Department has 
concluded that the cost of recapitalizing the AAV fleet with 
the EFV in terms of both procurement and sustainment costs is 
not affordable.
    The reality is that the 573 vehicles planned for this 
program, which were projected to cost about $17 million each in 
production, would alone consume the projected budget for Marine 
Corps tactical vehicles for a decade, crippling other critical 
recapitalization requirements within this portfolio.
    The decision to terminate the EFV is accompanied with a 
decision to pursue an integrated vehicle modernization effort 
comprising investment in AAV upgrades to extend that vehicle's 
mission effectiveness, the development of a new amphibious 
combat vehicle to replace the AAV that will leverage investment 
made in the EFV and be defined and designed from inception with 
affordability as a key requirement, an acceleration of the 
procurement of a Marine personnel carrier, a low-risk 
capability that complements the assault vehicle program.
    As we consider future development and recapitalization 
efforts for our ground combat tactical vehicles, increased 
emphasis on distributed command and control and vehicle 
survivability, armor and protection systems have introduced 
significant challenges to these vehicles' mobility and their 
affordability. The decision to restart our assault and vehicle 
program reflects the challenges posed to all of our future 
programs and the need to address affordability head on, early 
on.
    In sum, the Department is committed to continuing its 
efforts to recapitalize the force of ships, aircraft and 
vehicles, which provide our Nation the forward-presence and the 
unique ability to rapidly deploy forces from ship to shore 
across a wide spectrum of environments and threats that 
challenge our operations. Added to these operational 
challenges, we have yet new affordability challenges which are 
causing us to revisit past decisions and acquisition 
strategies.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. I look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley, 
General Flynn, and Admiral Blake can be found in the Appendix 
on page 32.]
    Mr. Akin. Thank you, Mr. Secretary.
    And General Flynn, were you next? Or have you guys picked 
an order?
    Okay, why don't you go ahead, General Flynn?

 STATEMENT OF LT. GEN. GEORGE FLYNN, USMC, COMMANDING GENERAL, 
            MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General Flynn. Mr. Chairman Akin, Representative Davis, and 
members of the committee, it is good to be here with you again 
today--this time to discuss amphibious operations. I am happy 
to join Secretary Stackley and Vice Admiral Blake. We have 
submitted a joint written statement, so like Mr. Stackley, I 
will be brief.
    Today, your Marine Corps executes its role as America's 
expeditionary force in readiness and is operationally relevant, 
because it is enabled by the United States Navy and the ships 
they crew and maintain. The product of this partnership is the 
ability to conduct a variety of amphibious operations against 
the full range of military operations that prevent conflict, 
respond to crisis and, if necessary, prevail in conflict.
    This operation flexibility is due in large part to this 
committee's continued support. I thank you for that, and I 
thank you for the support of all our marines and sailors.
    During the Cold War, U.S. forces were largely based 
overseas, with access maintained through an extensive network 
of forward bases. In many ways, as the world and the operating 
environment have changed, we have also changed our approach.
    Today, U.S. forces are largely based within the United 
States, and our ability to exert influence overseas is reliant 
on expeditionary operations and capabilities, both forward-
postured and surged, that can overcome diplomatic, geographic 
and/or military impediments to access.
    Amphibious capabilities remain critical enablers for 
overcoming access challenges and the key means to project power 
and influence events ashore. The military challenges we will 
face in the future will include state and, very possibly, non-
state actors in possession of modern anti-access and aerial-
denied weapons and technologies, meaning that amphibious 
operations, even those conducted for benign purposes like 
humanitarian assistance may be conducted in an uncertain or 
even hostile environment.
    Overcoming these challenges requires innovative tactics and 
capabilities. This is why I believe Secretary Gates said in 
August that the Marines' unique ability to project combat 
forces from the sea under uncertain circumstances is the 
capability that America has needed in this past decade and will 
require in the future.
    As current events have shown, this could not be more true. 
While some still question both the necessity and feasibility of 
amphibious operations, today, again, as recent events have 
shown, they are needed. These modern-day operations bear little 
resemblance to the operations and sacrifices made at places 
like Tarawa, Peleliu and Iwo Jima.
    As you look to the future, we are not looking to replicate 
those battles or that level of self and courageous sacrifice. 
This is why we continue to evolve the tactics and capabilities 
to use the sea as maneuver space and as a base to conduct ship-
to-objective maneuver, which allows us to avoid heavily 
defended areas where feasible and defeat likely adversaries.
    In humanitarian operations, these same littoral maneuver 
capabilities allow us to deliver disaster relief supplies 
directly to the points needed ashore, rather than dropping them 
off on the beach where they would be dependent upon the 
devastated, austere or nonexistent infrastructure and 
transportation system for distribution.
    Partnered with the United States Navy, marines are forward 
deployed today and responding today to crisis and still engaged 
in combat operations in Afghanistan.
    This past year alone, our sea-based forces conducted 
humanitarian assistance missions in Japan, Pakistan, Haiti and 
the Philippines; recaptured the pirated ship Magellan Star and 
rescued its crew from Somali pirates; rapidly reinforced in 
Afghanistan by committing the battalion landing team from the 
forward-deployed 26th Marine Expeditionary Unit, and then 
reinforcing the 26th Marine Expeditionary Unit aboard the 
Kearsarge and USS Ponce, with another 400 marines flown in from 
United States in order to respond to crisis in North Africa.
    History teaches us that preventing conflict is equally as 
important as responding to crisis. Amphibious capabilities that 
provide forward presence in a short access are a critical 
enabler for both. This is validated by the continuous increase 
in the geographic combatant commander demand signal for 
amphibious forces.
    Since 2007, the geographic combatant commanders' cumulative 
requests for naval forces have grown 86 percent for amphibious-
ready groups and Marine expeditionary units, and 53 percent for 
individually deployed amphibious ships. While our geographic 
combatant commanders are unconstrained in their requests, our 
job is to determine how best to meet their demand, given the 
resources available.
    For the foreseeable future, we will continue to maintain a 
forward-based amphibious-ready group and Marine expeditionary 
unit in the Western Pacific and maintain continuous presence in 
the Arabian, Indian Ocean as well. As recent events in North 
Africa and the Middle East demonstrate, it may also be 
necessary to maintain presence in the Mediterranean and along 
the coast of Africa.
    In an era of declining access and strategic uncertainty, 
the operational value of amphibious forces for missions across 
a range of military operations cannot be overstated. Amphibious 
capabilities provide mobility, persistence and responsiveness 
without which our Nation would be disadvantaged in its ability 
to respond to crisis. If these capabilities are allowed to 
decline, the alternatives would likely involve higher 
operational risk and higher cost.
    Again, thank you for the opportunity to provide an update 
to the Congress. I look forward to answering your questions.
    [The joint prepared statement of General Flynn, Secretary 
Stackley, and Admiral Blake can be found in the Appendix on 
page 32.]
    Mr. Akin. Thank you, General.
    And, Admiral.

   STATEMENT OF VADM TERRY BLAKE, USN, DEPUTY CHIEF OF NAVAL 
    OPERATIONS FOR INTEGRATION OF CAPABILITIES AND RESOURCES

    Admiral Blake. Chairman Akin, Representative Davis, members 
of the committee, it is my honor to appear before you with Mr. 
Stackley and General Flynn to discuss amphibious operations.
    Today, over 57,000 of our sailors are deployed with 26,000 
on land or at sea in the Central Command area of operations. 
Fifty percent of our fleet is under way and roughly 40 percent 
of our ships are deployed.
    Our sailors are on point throughout the world projecting 
power in Afghanistan, providing deterrence against North Korea, 
conducting counter-piracy operations in the Indian Ocean, 
maintaining global nuclear deterrence, providing ballistic 
missile defense in the Arabian Gulf, Western Pacific and 
Eastern Mediterranean, and building partnerships in Africa, 
South America and the Pacific.
    Our sailors also answer the call to support humanitarian 
relief and disaster assistance when needed, as we did last year 
in Haiti and Pakistan. Even today, our sailors and marines are 
responding to world crises, maintaining stations off the coast 
of Libya and helping the people of Japan.
    Our national security and economic prosperity depend upon a 
strong Navy that can keep the sea lanes free, deter aggression, 
safeguard our sources of energy, protect the interests of our 
citizens, and reassure our friends and allies. To do this, our 
Navy must maintain its global reach and persistent presence 
while delivering warfighting capability wherever and whenever 
it is needed.
    In partnership with the Marine Corps, the Navy amphibious 
forces support the core capabilities of our maritime strategy, 
including power projection, deterrence, forward presence, 
maritime security, and humanitarian assistance and disaster 
relief.
    With this budget, we will invest in our platforms that have 
proven to be consistently and effectively accomplishing these 
missions while expanding our capability to meet the most likely 
evolving threats.
    Investment in the mid-life upgrades of the LSD-41 class 
dock landing ships and installation of the self-defense systems 
on the LHD-1 amphibious assault ships are vital to retain the 
Navy's capabilities for future conflicts and to keep our ships 
on track to reach their full service lives.
    We will also advance our capabilities with the LPD-17 class 
of amphibious transport dock ships and the LHA-6 class, general 
purpose amphibious assault ships, the Zumwalt Class, DDG-1000 
class destroyers, the mobile landing platforms and the Littoral 
Combat Ships with their mission packages.
    Looking to the future, we are working to reintroduce a well 
deck into LHA-8 to define the requirements for replacements and 
to define requirements for the replacement of the dock landing 
ship, the LSD(X), while continuing progress towards procurement 
of a ship-to-shore connector replacement for our landing craft 
air cushion vehicles.
    As we build the Navy's future, I am very concerned about 
the long-term impact of the current continuing resolution. In 
addition to the delays in procuring the lead mobile landing 
platform and cancellation of several important ship 
availabilities, including the USS Peleliu, if the CR 
[continuing resolution] continues to the end of March, the lack 
of authorization for the fiscal year 2011 budget will very 
likely lead to significant cost growth in many of our Navy's 
programs.
    I ask for your support for our 2012 budget request for our 
programs and to address those programs and capabilities being 
impacted by the continuing resolution.
    Thank you for all your support to the United States Navy 
and the Marine Corps and our ability to answer our Nation's 
call when needed in conflict and disaster. I look forward to 
your questions.
    [The joint prepared statement of Admiral Blake, Secretary 
Stackley, and General Flynn can be found in the Appendix on 
page 32.]
    Mr. Akin. Thank you, Admiral.
    As we were talking just briefly before the beginning of the 
hearing, one of the concerns I have had all way along is the 
fact that, particularly on the Marine expeditionary vehicle--
that was the thing that was my number one interest for our 
hearing today--that I haven't just seen a simple ``here are the 
different alternatives, here is how much each one costs, and 
this is why we think this one is the best.''
    And so that line of--and it doesn't have to be something 
that is documented with 200 pages of notes after each one, but 
just rough in some numbers on that and just say, ``Hey, what do 
they look like?'' And I don't know that each of us taking 5 
minutes in asking questions produces that product.
    So as we discussed, just starting out, what I would like to 
do is to schedule a hearing that specifically looks at EFV. And 
I would like to look at whatever four or five good 
alternatives, or at least logical alternatives to investigate 
and say, ``What is the cost? What are the capabilities of each 
package?'' And when you take a look at cost and performance, 
what is probably the thing that we are going to need, which way 
we are going to need to go.
    And so that is going to require some homework to be done. I 
think it might have been good to have the homework done before 
we set anything in concrete, and I hope we haven't set anything 
in concrete.
    So that is just a request and a note to the other members 
of the committee here that I think this structure, the way the 
committee hearing is set up, isn't going to get to that 
question probably.
    And you weren't prepared to have that, am I correct, 
Secretary? You don't have that data right now.
    Secretary Stackley. Sir, what I would propose is a briefing 
as opposed to a hearing.
    Mr. Akin. Okay.
    Secretary Stackley. We would go through the current state 
of I call it the termination of the EFV and the process and the 
analysis to date leading up to the amphibious combat vehicle, 
which is the terminology being used for the replacement to the 
AAV.
    Mr. Akin. Did you answer my request to have, let us take a 
look at different ways to do this thing? I mean, it sounded to 
me like what you just said you have already assumed the EFV is 
dead on arrival. Maybe that is your decision.
    My concern is, did we look at half the number? Do you have 
a hard number from the manufacturer how much each one would 
cost? And have you run the numbers to say, what are these 
different alternatives, what is the performance we get for each 
one and the price performance? And has all of that been done? 
If it has, we would really like to know that even right now.
    It seemed to me that there are several assumptions built 
into some of what I am hearing the Marine Corps say. The first 
one is, is that we don't need a higher rate of speed for plane. 
It might be nice but we don't have to have it.
    The second one is the Navy is comfortable coming in to 12 
instead of 24 miles. I understand that maybe there is some 
technology that gives you some comfort to do that for the time 
being, but is that assumption 20 years from now a good distance 
to be 12 miles off the shore or not? That is a big assumption.
    The assumption, it appears to me was, is that 500--what was 
it--573 is too expensive. Does that mean 286 is also too 
expensive, as we talked about?
    Those are the kinds of things that--and I am okay if it is 
a briefing. That is okay. But what I really want is I want some 
great big old pieces of paper, and I want to have this is 
alternative one, alternative two, alternative three. Here is 
what you get for each one, here is how much it costs, and this 
is why we think this one is the best alternative. And that is 
what I am not seeing.
    Secretary Stackley. Yes, sir.
    Mr. Akin. And what I have seen is what I believe are some 
pretty good size assumptions built into the direction you are 
going. I am not sure those assumptions--you know, everything 
depends on assumptions, and I am not sure those assumptions 
are--first of all, the standoff distance from the Navy from the 
shore, what is that like now, what it is going to be like 5 
years, 10 years out, because as you guys say, the enemy has a 
vote, too. And they are going to be developing cheaper weapons 
that maybe can try to still hit our ships at closer distances. 
A little more distance is a lot of safety.
    And the smaller number. And then the other question is I 
think the idea was eventually we are going to develop a new 
replacement for the EFV which is--maybe go a little slower, we 
have got maybe a V-shaped hull, and we are going to have to 
develop that, and then build it and fund it. How long is that 
going to take and how much does that development cost? Is it 
going to be another $3.3 billion or not?
    And those are the kinds of things, I think, probably some 
of my colleagues are interested in. And we need to get in--if 
that is a brief, that is okay. But, Secretary, I think we want 
an analysis of a whole series of whatever more or less logical 
alternative so we can see which one is the right path for us to 
go. Is that what you meant?
    Secretary Stackley. Yes, sir. I would like to schedule a 
briefing at your convenience, and we will go through those 
details. There are several things that are mixed here. One is 
the requirements. Another is when we talked about alternatives, 
I think when you described alternatives, you are including a 
mix of EFVs, plus some other vehicle.
    Mr. Akin. It could be. I don't know.
    Secretary Stackley. And then separately, there are 
alternatives where the alternatives would be different 
versions, like an AOA [Analysis of Alternatives], to come in 
and meet the requirements that we defined on the front end for 
this amphibious combat vehicle. And then we will walk through 
the analysis that we have to date.
    Mr. Akin. I think where I have been coming from, and this 
is all the way along, but just to restate. I am unwilling and 
un-negotiating. To me, it is nonnegotiable that we have to get 
marines from the ocean to the shore. That is not--how you do it 
and the most effective way to do it, that is both of our 
business, and we all need to be comfortable with that decision.
    And anything goes as far as I am concerned. Top speed and 
performance at lowest cost, you know. What is the best deal we 
can get? And I think anything should be on the table, and if 
that means some smaller number of EFV fits in there, that is 
okay. If it doesn't work, if they are way too expensive when 
you get the order quantity smaller and the price goes through 
the roof, okay, it doesn't work. But I want to look at 
everything and, you know, keep everything on the table in order 
to meet that requirement.
    Secretary Stackley. Yes, sir.
    Mr. Akin. Okay. I have used up a lot of time, so I am going 
to just go ahead and go to--let us see. The first question 
would be for Mr. McIntyre.
    Mr. McIntyre. Thank you. Thank you very much. And my thanks 
to Mrs. Davis for sharing my opening statement, my being tied 
up on another matter.
    General Flynn and Admiral Blake, thank you for your 
service. We heard last year that the Department was looking at 
different weapons and projectiles and ways to mitigate gaps in 
the naval surface fire support plan. With DDG-1000 line 
truncated and the electromagnetic railguns still years away, 
are there any weapons or projectiles or other capabilities 
currently fielded or planned, which will serve to cover these 
gaps?
    And the question is also has that requirement changed? And 
can you tell me if there are any plans for a 5-inch long-range 
land attack projectile for the current destroyers and cruisers?
    Mr. Admiral, yes.
    Admiral Blake. Yes, sir. As you are aware, the triad of 
fires, which supports the amphibious landing, is made up of 
three distinct pieces--the naval surface fire support, organic 
fires and tactical air. And it is these three, if you will, 
intricate pieces which make up the entire requirement in order 
to be met.
    What we have done is with the DDG-1000, we have the 155-
millimeter gun onboard. That will be onboard that ship with a 
long-range land attack projectile. That round will be in excess 
of--the requirement is for an excess of 60 miles for that. In 
addition, we also have the tactical Tomahawk, which is 
available on both the DDGs and the CGs, as well as the 5-inch/
54 and the 5-inch/62 guns onboard the destroyers and the 
cruisers.
    At this time, we do not currently have in the program of 
record a program for a long-range 5-inch round. However, that 
said, we are open to all options and are looking at all 
options. In particular, we are looking at the railgun, which 
you mentioned, which with a 32-megajoule capability would be 
able to reach out to ranges around 100 miles. So that is the 
one of the leg triangle, which are, well, the triads of fires, 
which we are also working on.
    In addition, the Marines have the organic fires pieces, 
which would be their artillery when they were able to get it 
ashore. And then the third piece, which we have also invested 
heavily in, is tactical air. We have invested in smart weapons 
for all of our attack aircraft so that in combination with 
these three systems or these three legs of the triad, we would 
be able to shape the battlefield as we were going in.
    Mr. McIntyre. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Akin. Thank you.
    One thing I forgot to add. What is a reasonable timeframe 
that we could have that brief?
    Secretary Stackley. Sir, we work around your convenience. I 
think your schedule is----
    Mr. Akin. I think we are gone next week. Would it be the 
following week? Would that be----
    Secretary Stackley. Week after next? We will arrange that.
    Mr. Akin. Is that doable? Well, we are not asking for a 
whole lot of super details, but just a rough analysis of each 
category.
    Secretary Stackley. Yes, sir.
    Mr. Akin. Is that too fast? Would 3 weeks be better?
    Secretary Stackley. Well, 3 weeks would be 1 week smarter. 
But we can--I would rather work around your schedule, 
recognizing what you have pressing you all, and----
    Mr. Akin. We have a slot on April 7th available to the 
committee. Is that alright?
    Secretary Stackley. We will work it, sir.
    Mr. Akin. Okay. We will talk.
    Secretary Stackley. Yes, sir.
    Mr. Akin. There is some markup going on afterwards, and we 
are going to deal with that a little bit.
    Okay.
    Congressman Hunter.
    Mr. Hunter. Okay. Thanks, Mr. Chairman.
    I am going to wait for the EFV hearing on April 7th, or 
whenever we decide to do it. And Mr. Coffman has got a great 
question about amphibs and construction, so I am going to yield 
my time to Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I want to thank Secretary Stackley, General Flynn, Admiral 
Blake. Thank you so much for your service.
    I did want to talk specifically about amphibs. As you know, 
we are currently at 29 amphibs, and both yourself, the 
commandant and the CNO [Chief of Naval Operations] have said 
that the requirement is at 38. The Navy says they can live with 
33. That is an acceptable risk. We don't get to 33, though, 
until 2016. A little bit of gap there, I think, that concerns 
all of us.
    And we see what is happening around the world. We see 
humanitarian missions being performed in Haiti, the flooding in 
Pakistan, now looking at a situation in Japan. We are 
continuing to be spread further and further.
    We see ourselves in a situation in the Mediterranean of 
potentially deploying a MEU [Marine Expeditionary Unit] there. 
So we see a scenario of a MEU being attached to the 5th Fleet, 
the 6th Fleet, and then a continuing presence there in the 
Pacific Command. So we are seeing a heightening of need across 
a variety of different areas for our amphibs.
    And if you look in the past years, as we placed emphasis on 
our more advanced ships, the Arleigh Burke-class destroyer, the 
Virginia-class submarine, the LCS [Littoral Combat Ship], and I 
like to go back to what General Amos said and that is, you 
know, the Ford F-150s of the fleet are our amphibious ships, 
and they are the ones that are out there each and every day and 
where the most immediate need many times exists.
    And I wanted to get your thoughts. If you look at where we 
are with this shortfall and if you look at the scenario where 
we see the older Whidbey Island-class LSDs [Landing Ship, Dock] 
approaching 26 years of service, we see we are approaching some 
challenges there.
    Can you give me a timeline about when you see LSD(X) coming 
online? And can you give us a little clarification on the 
situation with the USS Peleliu LHA-5? It is pending 
decommissioning. And also where we are with the delivery of USS 
America LHA-6.
    So either Secretary Stackley or General Flynn, whichever of 
you there, or Admiral Blake, whichever of you would like to 
answer those questions, I think having that clarity on the 
overall vision about our amphibious fleet and then some 
specifics about some of our aging portions of the fleet.
    Secretary Stackley. Yes, sir. Let me propose to split the 
response here. I will start with--let me just start with the 
plan right now for shipbuilding in terms of amphibs.
    You highlighted LHA-6, the America. She is under 
construction right now at Ingalls. She is about a year--our 
projected delivery date for the LHA-6 is about a year later 
than what we had contracted for. And as a result of that, we 
have decided to extend the service line for the Peleliu to 
minimize the gap in terms of big deck amphibs. So she is about 
30 percent complete, and 2015 timeframe she will be in service.
    The follow-on ships to the America class, LHA-7, is in the 
2011 budget request. And so that is one of the ships that is 
caught up inside the continuing resolution, but we are 
continuing to work with Northrop Grumman Shipbuilding in terms 
of planning and advance procurement of materials to try to keep 
that ship's schedule preserved as much as possible while we 
work through the balance of the budget and the negotiations 
associated with that ship.
    Its next follow-on is the LHA-8, and that is when we return 
to a well deck in our big decks. So today while we build the 
LHA-6, negotiating, working around the budget associated with 
the LHA-7, we are going through a mini analysis of alternatives 
for the best method for restoring a well deck to our big decks 
to support that 2016 ship, and then as well you see the advance 
procurement preceding that in the 2012 FYDP [Future Years 
Defense Program].
    The LSD class, as Admiral Blake referred, we are conducting 
a midlife upgrade, and that is high priority inside of our 
budget to ensure that we are able to not just sustain them to 
their service life, but ensure that they are both mission-
effective and affordable in terms of upkeep and maintenance 
through the balance of their service life.
    And the LSD(X), which is the planned replacement for the 
LSD-41 class, today sits in 2017. So we are in fact looking at 
the total force lift requirements in terms of lift capabilities 
by platform. And as we complete the LHA-8, where we restore the 
well deck, and we look at the capability assessment that the 
Marine Corps is completing for future force requirements, when 
we look at the balance of force, that then defines what lift 
capability LSD(X) has to have.
    So the sequence of events is, complete the LHA-8 in terms 
of its upfront mini analysis of alternatives, get the balance 
of the lift capability required by the LSD(X), conduct that 
analysis of alternatives, and then get in to the--we call it 
the TD [Technology Development] phase for LSD(X). But we are 
firm in the 2017 requirement for a start of procurement for 
LSD(X).
    Mr. Akin. We have got now Mrs. Davis with a question, I 
believe.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, all of you, for your service to the country.
    I wanted to ask about our operations in Japan right now and 
the disaster relief there and to have a better understanding of 
how our amphibious assets are being used there and what you see 
as the importance of those assets in these kinds of activities.
    I know strategic shaping, looking at environments and how 
we can better position ourselves for noncombatant evacuations, 
other activities. What role is that playing now and how 
critical really is that?
    Admiral Blake. Mrs. Davis, right now, the forces, it is a 
combination of forces over there. It is not only the 
amphibious--it is not only the ESG [Expeditionary Strike 
Group], the Essex ESG in particular, because as you are aware, 
they are part of our permanently forward-deployed forces that 
are over there. They are in the process of supporting events in 
Japan.
    In addition, the Ronald Reagan Strike Group was redirected 
and is now in position off the northern part of the island 
where the bulk of the events are taking place, and they are in 
support of events on the ground. In fact, they are using their 
helo support in order to move both food and supplies ashore.
    Additionally, you have ships from the George Washington 
Battle Group, which is home ported in Yokosuka, supporting 
events, and they are being tasked as needed to go out, as well 
as the flagship for the 7th Fleet, the USS Blue Ridge.
    So the 7th Fleet commander at this time has the Essex ARG 
[Amphibious Ready Group], ships from the GW Battle Group, as 
well as the Ronald Reagan underway supporting that. And what 
our primary is to get the helo decks over there in order to be 
able to move stuff from the ship-to-shore in order to support 
the people on the ground, which is one of our primary functions 
in any humanitarian assistance, disaster relief event.
    Mrs. Davis. So looking at that area, at least, of response 
is not a critical issue in terms of losing any of the 
amphibious-related platforms. That is not the issue----
    Admiral Blake. No, ma'am.
    Mrs. Davis [continuing]. That we would be facing. Can you 
talk a little bit more about how that effort is organized 
generally? I think I have been asked are the commanders in the 
field at that time in control? I mean, who is in charge? And is 
there confusion sometimes about who should be in control, who 
should be in charge?
    Admiral Blake. No, ma'am. Basically, you have got the PACOM 
[U.S. Pacific Command], the Pacific commander, the combatant 
commander in that theater. Underneath the Pacific commander, 
you have got the fleet commander. Both of them are at Pearl 
Harbor.
    Then, when you walk it down, you come to the 7th Fleet 
commander who has his flagship in Yokosuka. And then you also 
have the commander of naval forces Japan, a two-star who is on, 
if you will, the shore side. And so they all work in 
conjunction, and then they all work for the PACOM commander.
    Mrs. Davis. Is that same level of expertise really 
available in all the commands across the globe?
    Admiral Blake. Yes, ma'am. Yes, ma'am. And I can only speak 
for the Navy, but that is the way we are organized in order to 
be able to operate.
    In addition, we have also got the Marine Corps elements, 
which are participating, because as you are aware, the Essex 
ARG has marines assigned to them, as well as you have also got 
the third MEF [Marine Expeditionary Force] down at Okinawa, 
which is available to support. And they can, of course, shift 
forces and they will all be following under Pacific command 
there.
    Mrs. Davis. And everybody is trained in those efforts. I 
think we are obviously doing a substantial job, and I 
appreciate that. I think that it is very important.
    Admiral Blake. Yes, ma'am. In fact, one of our greatest 
skills is we are an expeditionary force, and then we are able 
to go forward and perform a full spectrum of operations, as I 
mentioned in the opening remarks. We can do everything from 
power projection to deterrence to what we are currently doing, 
which is humanitarian assistance and disaster relief.
    Mrs. Davis. Where is the need in that arena that we are not 
able to meet right now?
    Admiral Blake. I am not sure I understand your question, 
ma'am.
    Mrs. Davis. In all the operations that are being done now, 
the use of the carrier groups, et cetera, is there, I mean, is 
there anything that we are lacking in the ability to help and 
support in that region?
    Admiral Blake. No, ma'am. The way the Pacific commander, 
the combatant commander in theater would be requesting forces 
and they would be working through Pacific, the fleet commander, 
and then it would go right on down.
    And if you needed assets to be shifted from the continental 
United States, then they would go back to the 3rd Fleet 
commander, pull those forces. They would then ``chop'' to 7th 
Fleet, if you will. ``Chop'' is a term we use when you go from 
one commander to another.
    And that is exactly what we do. It is how we always 
operate. And they would also, if necessary, be able to pull 
forces from Pearl Harbor or from any of the West Coast ports. 
You could even go to the East Coast ports, if you needed to.
    Mrs. Davis. Thank you.
    Mr. Akin. Congressman Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, Mr. Secretary, I thank you so much for your 
service.
    Admiral, General, your service to this country as well.
    I do have one question on EFV, and then I want to talk 
about some of our shipping requirements.
    But that is that, Mr. Secretary, my concern is that, to 
meet our requirements--ship-to-shore requirement, we are just 
going to use a service life extension program for the AAV. Do 
you plan on simply modernizing the AAV and say it meets the 
requirements? Or is a new vehicle needed? And what is really 
your position on this?
    Secretary Stackley. Yes, sir. I am going to share this 
response with General Flynn. In terms of the AAV and meeting 
requirements, when we move from EFV to this amphibious combat 
vehicle, we are in the stage of actually defining what is the 
limit of capability that we can bring to this vehicle and still 
have it be an effective fighting vehicle for the Marine Corps.
    And the capabilities that we are looking at that that were 
cost drivers on the EFV that we are trying to scale back into 
the range of affordability, speed is a major driver. So we are 
looking at the speed, distance, time equation, which comes back 
to the issue that Chairman Akin raised, which is how far from 
shore do you plan to deploy the force. And speed is the 
critical element there.
    So speed was a major cost driver on EFV. Speed is, frankly, 
a--I call it deficiency on AAV today. We have to do better in 
terms of the speed that the AAV brings to the force. So we have 
got to increase our capability that the AAV has today in speed 
or mobility.
    Another area that we had already planned on upgrading the 
AAV for is survivability. So it is an old vehicle. The 
survivability requirements have increased, driven a lot by 
experience in Iraq and Afghanistan. And so we had planned on 
increasing the survivability of the AAV. We are going to 
continue with that, and any future vehicle that replaces the 
AAV will likewise have an emphasis on increased survivability.
    Mr. Coffman. Sure.
    General Flynn.
    General Flynn. Sir, I think one of the key things when we 
take a look at affordability, it is not just the affordability 
of the EFV. It is the affordability of what we have to do 
across all our ground vehicles. The reality is largely driven 
by protection requirements and also the need to increase our 
network mobility.
    The cost of ground procurement has not only increased. It 
has increased exponentially. So, first of all, when we looked 
at affordability of the program, we looked at affordability in 
the context of the overall requirements for the Marine Corps.
    A key part of that is, we were always thinking, you know, 
even in October, when we released the request from industry to 
take a look at a survivability upgrade for the AAV, we had to 
upgrade that anyway, because the IOC [Initial Operating 
Capability] for the EFV was not going to occur until 2016, and 
it would take us 10 years to get to. Because we tried to spread 
out the program so much to make it affordable, it would have 
taken us 10 years to get to full operating capability.
    So we were looking at a survivability upgrade anyway. I 
think the key thing as we move forward, now that we have the 
request for industry out there, is to take a look what industry 
is going to come back with. We are going to have an industry 
day towards the end of March, and by the end of April, we will 
have a better idea of what is going to be capable.
    And one of the key things we are going to have to trade off 
between what we do to the AAV is what opportunity cost do you 
invest in the AAV at the expense of creating a new vehicle and 
the minimum capabilities that we need to be able to execute the 
amphibious mission.
    Mr. Coffman. Thank you.
    Admiral Blake, due to the continuing resolution, the 
amphibious ship, the USS Peleliu's maintenance availability was 
recently cancelled. Furthermore, the Navy plans to extend the 
Peleliu's decommissioning date by 1 year in 2014. What impact 
will this missed maintenance availability have on keeping her 
operationally available to meet amphibious lift requirements? 
What options are being planned to mitigate missed yard times 
across the fleet?
    Admiral Blake. Sir, first of all, Peleliu is only one of 
five ships that are--as the result of the continuing resolution 
as of 30 March, we will be required to cancel five avails. That 
would be the Peleliu, which you mentioned. We have also got to 
cancel a LSD-41 class availability. We are also going to have 
to look at canceling two DDG-51 class availabilities and one 
FFG-7 class availability.
    So that is just the extent, so it is not just the Peleliu. 
It is five ships total, and that is as of the 30th of March. As 
the continuing resolution continues to move on, we will, of 
course, have to look at additional availabilities in order to 
cancel, which we will be required to cancel.
    That is one of the challenges we are having right now, 
because as was mentioned earlier by Representative Wittman, the 
Peleliu, we have decided that because of the delay in the 
delivery of America, we are going to now delay the 
decommissioning of Peleliu from 2013 to 2014. So with the fleet 
commander, we are required to do now is to look at his options 
in order to determine how to be able to support the global 
requirements and at the same time get the Peleliu into an 
avail.
    There is a double-edged sword to that when you extend a 
ship like the Peleliu, because there are unexpected manpower 
costs, there are unexpected operational costs, and then as you 
extend that, we are probably going to have to look at doing an 
additional maintenance period for that ship in order to get it 
to go to that.
    So those are all the factors, if you will, that the fleet 
commander will have to look at as he is meeting the global 
commitments based on what the combatant commanders come in 
with.
    Mr. Akin. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Although we are going to have a briefing on EFV, I have 
some issues that I wanted to ask about, because I am a little 
confused about how we got to where we are still. Because I am 
reading through the Nunn-McCurdy certification, and the 
analysis--and this is only less than 4 years ago. And the 
analysis came up. It said the lowest program acquisition unit 
cost, PAUC, was associated with upgrading the AAV alternative. 
Okay, that is lowest cost.
    Next lowest was estimated for the fix, the EFV alternative, 
and the new start alternative had the highest cost. So we are 
ending the EFV as we know it, and we are really going to a new 
start, which, according to the Nunn-McCurdy, was the highest 
cost alternative. And I am just curious as to what has changed 
that either makes this a false statement or makes what we are 
doing actually going to cost more?
    And I am not trying to beat a dead horse here, but what I 
am trying to figure out is that there is a level of confidence 
that we have to have in the information that we are getting, 
and this was the best information we had at the time, which 
predates me, of course, but I am trying to figure out where are 
we going.
    Now I know that the RFI [Request for Information] just went 
out. What was that, about a month ago? And the request was 
asking for a new start, an upgraded AAV, and I am going to go 
to the AAV, which does, what, on a good day about 8 knots?
    General Flynn. Yes, sir, that is correct.
    Mr. Critz. Okay. So--and now the drop-in distance is 
changed. So we have got an issue, because initially it was 25 
nautical miles. Now it is 12, is that correct?
    General Flynn. Sir, the launch distance, what we have put 
out in the RFI, is at a minimum launch distance of 12 nautical 
miles, minimum launch distance of 12 nautical miles. And when 
the Nunn-McCurdy was done, sir, the launch distance was--that 
was part of Nunn-McCurdy--was 10 to 20 miles.
    Mr. Critz. Oh, so we are still within that range.
    General Flynn. Yes, sir.
    Mr. Critz. Okay. Now, as I understand it, we tried to make 
the EFV do 25 knots, too, so that it could plane and travel up 
to 25 nautical miles, is that correct?
    General Flynn. Sir, what drove it to plane was the ability 
to get up to be able to do, I guess, around the 25-knot 
requirement, because it all goes back to this speed, distance, 
habitability requirement on the vehicle to get ashore. That is 
where the trade would be.
    If you say what changed, what changed a little bit is how 
we are looking--what changed is how we are looking at the 
requirement. So how long can you--what distance do you have to 
traverse, what is the speed that you are going to traverse, and 
what is the habitability in the vehicle. And if you can be 
comfortable in the vehicle, we can do some trades there, and 
that is where the trade is.
    And then what also changed since the Nunn-McCurdy breach is 
all the other things that are affecting the affordability of 
this program, and not just this program, but the other things 
that we need to do around it. That is what changed, sir.
    Mr. Critz. Okay. Now, it is my understanding that you don't 
want your marines in the vehicle on the sea more than maybe 40 
minutes, or they are going to get beat up so badly that they 
are not going to be as effective when they hit the shore.
    General Flynn. It depends on the vehicle, sir. And I would 
say that is true for the AAV. Again, it is the quality of the 
ride. Is it cool? Are you sucking in diesel fumes? Are you 
bobbing up and down? That is what you do in the AAV.
    On the EFV, when it was up on plane, it was a relatively 
smooth ride. The climate was pretty good. So as we look at a 
future design, the key part that we are going to be is what is 
the habitability, if you will, or the quality of life in the 
back of the vehicle. And that is a key thing we are going to 
have to look at in the new alternative.
    Mr. Critz. And one of the cost drivers was it having to 
plane, which was what drove the cost up so much because it was, 
I don't know, if it was new technology, it was pretty forward-
thinking technology, is that correct?
    General Flynn. Yes, sir. The size of the engine to move it, 
to bring it up on plane and also the complexity of the 
technology to configure the vehicle to plane.
    Mr. Critz. So we are probably going to--if we are still 
looking at 12 nautical miles, you are still going to have to 
plane.
    General Flynn. Sir, we are not saying right now that we 
think we are going to have to plane. There may be an option to 
get that far that would not require planing.
    Mr. Critz. Okay. Well, I just figure, 12 nautical miles, 
you got to be going 18 knots to do 40 minutes. So that is 
pretty fast.
    Okay. And one thing I was unclear with, as my time runs 
out, is that when the Nunn-McCurdy hit, the 1993 dollars for 
the EFV was 13.3 million. Is it now 17.3 or something like 
that? Is that in 1993 dollars or is that current problem?
    General Flynn. In fiscal year 2007 dollars, it was about 
$17 million, sir, in fiscal year 2007 dollars.
    Mr. Critz. Okay. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Akin. Mr. Rigell.
    Mr. Rigell. Thank you, Mr. Chairman.
    And Secretary Stackley, General Flynn, and Admiral Blake, 
thank you very much for your testimony today.
    And I just want to pick up a bit on this discussion of 
speed and hull design. I know from, frankly, a lifetime of 
adult boating and reading all the magazines, there is just some 
profound physics taking place between a planing hull and a non-
planing hull, when moving at displacement speeds.
    So, General, would you just comment, please, on--you 
mentioned, I believe, that the speed which you want the new 
vehicle to be able to approach the shore has not yet been 
determined. Is that correct?
    General Flynn. That is correct, sir, until we have a better 
idea of what the alternatives are.
    Mr. Rigell. Okay. Well, we are going to be--you know, as we 
look at this balance between speed and a V-shaped hull design, 
let me ask you this. Is part of what we are trying to 
accomplish as well the ability of this vehicle once on land to 
withstand an IED [Improvised Explosive Device]?
    General Flynn. Sir, that is one of the things that has 
changed since the initial development of the EFV is we have 
learned a lot more about protection. We have learned a lot more 
about underbelly blast protection than we knew in the past. You 
know, we in some cases went even beyond V-shaped hulls. We may 
be inserting chimneys in vehicles now to mitigate blast.
    So we have learned a lot about blast, and that is one of 
the things if we start this anew, that we are going to be able 
to take a fresh look at it. How do you get the better blast 
protection that we would like to see in this vehicle?
    Mr. Rigell. So. but wouldn't you say that you would 
probably start out with a bias in favor of a V-shaped hull?
    General Flynn. Sir, I wouldn't be biased towards a V-shaped 
hull, because what I am seeing now is there are some things 
that maybe even better than a V-shaped hull just because of 
everything that we are learning about blast effects.
    Mr. Rigell. Okay. Very good. And I know the whole committee 
would be looking forward to seeing exactly what your 
requirements are going to be of the new vehicle.
    Looking over the cost that was spent on the EFV, 3.7 
billion, and I know for all of us, for all of us, that is just 
painful, given our fiscal crisis. And with the chairman's 
indulgence, I would like to ask for a moment, if we could talk 
just a moment about the Marine personnel carrier.
    I know it is not amphibious, of course, but could you 
describe, General, what the unique mission requirements for the 
Marine Corps might be that would cause us to need to develop a 
new vehicle? Because that's the information I am--my 
understanding is we are also going to pursue development of a 
Marine personnel carrier.
    General Flynn. Sir, when the expeditionary fighting vehicle 
went through the Nunn-McCurdy effort in 2007, one of the ways 
that we attempted to deal with affordability back there was we 
had a requirement for 12 battalions worth of armored or mobile 
lift. To make it affordable, what we then went down the road 
for is eight battalions worth of EFV lift and four battalions 
of Marine personnel carrier lift.
    So that was when we first started looking at the Marine 
personnel carrier. It was a part of the effort. That is when we 
reduced the quantity of the EFV requirement from a little over 
1,000 vehicles down to about 571.
    So that is where the origin of the MPC [Marine Personnel 
Carrier] program was. It was, if you will, the partner program 
to the expeditionary fighting vehicle program.
    Mr. Rigell. Sure.
    General Flynn. So the approach on the MPC is going to be a 
little bit different than the other vehicles. There are, we 
believe, right now, six potential off-the-shelf or commercial 
alternatives available right now.
    In addition, we have already built one technology 
demonstrator. So we have a pretty good idea what this vehicle 
would look like. And again, the requirement is not new. The 
requirement goes back to 2007, and it was part then of the 
effort to make the EFV more affordable and to provide the 12 
total battalions worth of armored lift that we were looking for 
on the battlefield.
    Mr. Rigell. Well, I am encouraged and I applaud your effort 
at really looking at off-the-shelf. I know each one of us wants 
to squeeze every dollar of efficiency that we can. To the 
extent that we use something that is presently out there, we 
are going to leverage our money that much more.
    In the few seconds that are remaining, General, could you 
just for my benefit help me to understand how the Stryker 
vehicle may or may not play into this. I know it is a 
sophisticated family of vehicles with tremendous amount of 
capability.
    General Flynn. Sir, one of the key requirements that we 
will be looking for in a Marine personnel carrier is the 
ability to swim across rivers.
    Mr. Rigell. Okay, that is it right there.
    General Flynn. So that is one of the key things. And plus, 
I think, you know, it has to--what underbelly armoring is the 
best? And that is the second part of what we are really going 
to be looking at in the future, sir.
    Mr. Rigell. Very good. Thank you.
    I yield back.
    Mr. Akin. Mr. Chairman.
    Mr. Bartlett. Thank you. Thank you very much.
    I want to continue with the line of comments and the 
questions that our chairman asked. And my first question has to 
do with the process.
    You obviously go through a very rigorous process in 
deciding what new platform what you want to develop. We are not 
privy of that process at all. And so you come to us with an 
already-made decision as to what that ought to be. And we are 
then placed in kind of an adversarial role, because you have 
pride of authorship, and you are in kind of a defensive role 
defending what you are proposing, and we are kind of in an 
adversarial role with you.
    This is not a productive way to proceed. I would like, and 
I am sure a number of our members would like, to be involved in 
the process that you go through to make these decisions.
    You seek the advice of a lot of experts. You do war gaming. 
You look at the limits of technology. You look at the rate at 
which technologies are developing and could be developed, 
because many of these platforms are going to be with us for 30, 
40, 50 years. So we need to be looking down the road, which I 
know it was one of the concerns of our chairman. And he is 
talking about standoff is what we do today, relative to 
standoff appropriate for what we need to be doing 10 or 20 
years from now.
    Can we be involved in that process?
    Secretary Stackley. Yes, sir. I would describe--and this 
goes a little bit back to your discussion about briefing in a 
couple of weeks in terms of where we are today. I am, frankly, 
not aware of anything right now in our process that would be--
let us put it this way. I believe that the process we are 
executing right now, we have the ability to be fully 
transparent with you all to share with you the analysis that we 
are doing, the trades that we are considering----
    Mr. Bartlett. This is after the fact. I would like to be 
involved before the fact so that we are involved in the--yes, I 
am sure you go through a very rigorous program before you 
decide what new platform you want to bring out. There is no 
fundamental reason we couldn't be involved with that, is there?
    Secretary Stackley. Fundamentally, I think the decision to 
terminate the EFV program that was announced by the Secretary 
was not a traditional program new start process. This was a 
case of in the course of, frankly, the budget process and 
taking a look at the challenges in POM 12 associated with 
continuation of that program and that budget process, that is 
where the affordability issue----
    Mr. Bartlett. But there was some internal discussion. I 
think our chairman would have been very much more comfortable 
if he had had the opportunity of potentially being involved in 
there.
    Let me go to a specific question about this process. 
Technologies mature at various rates, and there are some 
physical limits to the asymptote for many technology 
advancements.
    In looking to the future for a mechanism of getting our 
Marines to the shore, with the access denial capabilities that 
our enemies are developing or could develop, I am not 
comfortable that we have done an adequate analysis of 
alternatives and have adequately competed the missions to 
decide that this amphib ship-to-shore is exactly the right 
thing to do.
    I do not know the rate at which these technologies will 
develop, but it is conceivable to me that access denial in the 
future will be so robust that we are not going to be able to 
get anywhere near 12 miles to the coast, in which case, don't 
you think we need another alternative for getting our marines 
ashore?
    What we have got now, sir, is more than we need for most of 
our activities. Going aboard to Haiti or to Libya or any of 
these places, you know, they don't have much access denial. But 
one day we will be in a war with a peer that will have a lot of 
access denial.
    I am not comfortable that 12-mile standoff will be the 
right standoff 20 years from now. Are you?
    Secretary Stackley. So I am going to turn the requirements 
officer to talk about the derivation of the requirement that 
establishes the----
    Mr. Bartlett. We have only 18 seconds. We can't do that. 
What I would like to do, sir, is to be involved in the process 
of how you got there. Our chairman is an engineer. I am a 
scientist. We have very good professional staff that could 
benefit by----
    Secretary Stackley. Let me, in the time remaining, just 
describe the approach that was taken. The requirement to deploy 
marines from 20-odd miles from shore was driven principally by 
anti-ship cruise missiles. And at the time that requirement was 
established, we really had limited defense against anti-ship 
cruise missiles, particularly if they are coming from over the 
horizon.
    So when we go after that threat through Navy Integrated 
Fire Control-Counter Air capability in the past couple of 
years, in fact, particularly this past year, we have been able 
to successfully demonstrate that capability coming forward on 
the maturity of technology timeline that enables the Navy to 
determine that they in fact can go closer to shore in the face 
of that threat.
    Now, that doesn't cover all threats. And the bottom line is 
that that becomes a limiting factor in terms of whether it is 
an anti-ship cruise missile. In your defense against that or 
other threats, you are going to consider that threat in 
determining how you deploy your forces.
    Mr. Bartlett. Thank you. Thank you very much.
    Look forward to working with you in the future.
    Thank you, Mr. Chairman.
    Mr. Akin. Mr. Young, did you have a question or an inquiry 
at this point?
    Mr. Young. Thank you so much for being with us, gentlemen.
    I think I will pivot off of my esteemed colleague from 
Maryland's line of questioning there and just follow up a bit 
on the EFV.
    It is my understanding that this ship-to-shore capability 
power projection that has really defined the Marine Corps, at 
least in the 20th century, we are seeking to continue it here. 
And I would just like to step away and ask kind of a larger 
question as a marine myself here.
    It has been some time since we have had a contested 
amphibious landing, and this question may have already been 
asked, but with the prospect of access denial weapons out there 
being developed by so many countries, would it make more sense 
perhaps to invest our resources in capabilities from the air, 
redefining the Marine Corps' amphibious capabilities perhaps.
    Or, instead, is the justification behind the EFV and other 
similarly equipped vehicles that we need to have redundancy, if 
for some reason we were encounter an enemy that could defeat us 
from ground-to-air as we insert our marines into a given area? 
Is that the reason why we need our amphibious vehicles?
    I am not sure I have seen this tested out in any robust 
way, at least in the literature I have read in recent months, 
so perhaps one of you gentlemen or more could address that.
    General Flynn. I think at the heart of your question is 
when and where do you need the capability. And I think the 
question on that is you are needed across the full range of 
military operations.
    At the high end, if you say that we are going to do a two-
brigade forcible entry operation, we are going to have in 
conjunction with marshalling the forces to do that probably 
anywhere from 45 to 60 days of shaping operations to do it. So 
that is one end of the spectrum that will influence, you know, 
the threat that you would have to launch in there is how much 
time you would have to shape your environment.
    Then the other part is--and some would say at the high end 
is the least likely chance that you would have. But as you said 
there, there has to be redundancy.
    And when was the last forcible entry operation? Well, the 
one that I come to mind when we talk about an air-only option 
is the amphibious withdrawal from Somalia. I would not have 
wanted been the last person getting on the last helicopter in a 
collapsing perimeter. I like the fact that I had that ability 
to be able to withdraw back to the sea base and fight as you 
withdraw. So that is one part.
    So at the lower end of the range of military operations, 
you may not have the shaping time. You may have to respond 
today just like forces responded the same day the crisis was in 
Japan. We responded that day. So what capability do you need? 
And I think you do have to have the balance.
    And then the key question is, you know, under that threat 
environment, how closer are we going to be able to get. And we 
do believe that we are not going to get any closer than 12 
nautical miles, but we are not going to plan ourselves at 12 
nautical miles. That could be the launch point for the vehicle 
to go. And then the launching platform then pulls away from the 
12 nautical miles. It is very similar now to how we do high-
speed launches even closer right now.
    So I do think you need to balance capability of having both 
an air and a surface option, because on the surface is the only 
way you can rapidly build combat power up and get off the beach 
quickly. So that is how I--when I looked at the requirement 
that's as I see it, but I don't just focus on the high end. I 
also look at all the variables that would take us down to a 
lower threat level or a more likely area of employment.
    Mr. Young. By way of follow-up in our remaining 50 seconds 
here, your point that only on the ground is where you could 
build up a fairly robust combat power, is that to say that--
maybe you could tease that out. Explain exactly what you mean 
by that, why that cannot be done by inserting your marines from 
air and--?
    General Flynn. I think it is just to be able to get the 
volume of combat power that you need to be decisive. In the 
future environment, we are going to spread out over the 
battlefield, but still the reality of pushing things across, 
the volume really comes from the surface. And initially, you 
have to establish the beachhead, and then you have to push off 
the beach, and then that is where the robust supplies come in.
    Mr. Young. You mean the volume of personnel, the volume of 
marines, or are you referring to our ability to place 
equipment?
    General Flynn. I think all of the above, sir. I think it is 
not only to get the combat forces in, but to get the 
sustainment in as well.
    Mr. Young. All right. Thanks, General.
    Mr. Akin. We have a vote before too long here. I thank you 
all for coming in. I think just from the questions, it says 
that in a couple of weeks we will be able to have a probably 
interesting briefing. And we will look forward to that. And 
thank you so much for your time.
    [Whereupon, at 3:22 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 16, 2011

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 16, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 65592.001
    
    [GRAPHIC] [TIFF OMITTED] 65592.015
    
    .eps[GRAPHIC] [TIFF OMITTED] 65592.016
    
    .eps[GRAPHIC] [TIFF OMITTED] 65592.002
    
    [GRAPHIC] [TIFF OMITTED] 65592.003
    
    [GRAPHIC] [TIFF OMITTED] 65592.004
    
    [GRAPHIC] [TIFF OMITTED] 65592.005
    
    [GRAPHIC] [TIFF OMITTED] 65592.006
    
    [GRAPHIC] [TIFF OMITTED] 65592.007
    
    [GRAPHIC] [TIFF OMITTED] 65592.008
    
    [GRAPHIC] [TIFF OMITTED] 65592.009
    
    [GRAPHIC] [TIFF OMITTED] 65592.010
    
    [GRAPHIC] [TIFF OMITTED] 65592.011
    
    [GRAPHIC] [TIFF OMITTED] 65592.012
    
    [GRAPHIC] [TIFF OMITTED] 65592.013
    
    [GRAPHIC] [TIFF OMITTED] 65592.014
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 16, 2011

=======================================================================

      
                    QUESTION SUBMITTED BY MR. SMITH

    Mr. Smith. The USMC LAV Program Manager met with HASC staff in 
January 2010 and reported significant benefits associated with side and 
wheel-well armor kits added to the USMC fleet of LAV's. These kits were 
developed by Armatec and installed at the Barstow and Albany USMC 
Depots. The Committee was informed that these kits added needed 
survivability to the LAV's, while also extending LAV service life. The 
HASC also understands that several allied countries are incorporating, 
into their vehicle fleets, additional technologies developed by this 
company such as Mine Blast Floor and Underbelly Protection Kits, Roof 
Mounted Blast Attenuating Seats, and Armored Fuel Tanks. Are there 
plans to evaluate the technologies from recent LAV survivability 
upgrades for possible use in upgrade programs for the AAV or HUMMWV 
fleets?
    General Flynn. Yes. CD&I manages the capabilities included in the 
Ground Combat and Tactical Vehicle Strategy as a portfolio. AAV will 
benefit from the lessons learned from LAV and all other USMC vehicles 
in the portfolio, plus some Army vehicles such as the Bradley with its 
Urban Survival Kit and Stryker with its new Double Vee Hull. CD&I is 
actively connected to relevant intelligence from the National Ground 
Intelligence Center and the Marine Corps Intelligence Activity, and it 
communicates with protection experts from Army Research Labs and TARDEC 
to stay current on best practices with respect to Force Protection and 
Survivability.
    The AAV upgrade initiative is planned to improve protection against 
roadside and underbelly IEDs by upgrading protective armor and 
modifying the interior of the vehicle to mitigate blast and 
fragmentation effects while maintaining current water and land mobility 
capabilities.
    Analyses are ongoing to underpin AAV protection requirements, and 
to ensure these requirements are balanced against others such as swim 
capability, land mobility, etc. For instance, CD&I, PM AAVS, and MCOTEA 
are assessing the feasibility of protecting the occupants of the AAV 
during underbelly attacks through a deliberate study performed by Army 
Research Labs. In this study, ARL is estimating the potential benefit 
afforded by all-external applique, all-internal applique, and some 
combination of the two, using 3D modeling and simulation. Given that 
AAV has stricter swim mobility requirements than LAV, more attention is 
being paid to the second order effects of adding heavy protection to 
the belly of the AAV. CD&I anticipates leveraging Government (Naval 
Surface Warfare Center) and academia (Stevens Institute of Technology) 
to assess the effects of heavy upgrades on swim performance, and Nevada 
Automotive Test Center to assess the effects on land mobility, 
reliability, and ride quality.
    Likewise, future HMMWV upgrade initiatives will benefit from the 
lessons learned from past initiatives, to include recent LAV upgrades, 
experimentation on the SCTVC (also known as ``Capsule''), ongoing 
experimentation on DARPA's Blast Mitigation System (also known as 
Structural Blast Channel or Chimney), plus the ongoing technical 
development of the new-start Joint Light Tactical Vehicle systems. The 
USMC is actively pursuing better protection for a portion of the HMMWV 
fleet, and anticipates a recapitalization initiative that will likely 
replace older cabs with more protected ones, while improving off-road 
mobility in order to expand maneuver space, within established cost and 
transportability constraints. Knowing that protected mobility for the 
light fleet is an extremely difficult task within the USMC's unique 
transportability requirements, it will continue to leverage the 
experience of Science and Technology activities such as the Office of 
Naval Research and DARPA, from Industry through our Materiel Developers 
at Marine Corps Systems Command, and from Research and Development 
Activities such as TARDEC and ARL, to ensure a balanced and effective 
set of capabilities is fielded.

                                  <all>

</pre></body></html>
